No. 20-1453

du the
Supreme Court of the United States

 

 

CAL CARTAGE TRANSPORTATION
EXPRESS, LLC, et al.,

Petitioners,
Vv.

THE PEOPLE OF THE STATE OF
CALIFORNIA, et al.
Respondents.

On Petition For A Writ Of Certiorari
To The California Court of Appeal

BRIEF FOR THE MINNESOTA TRUCKING
ASSOCIATION, AS AMICUS CURIAE
SUPPORTING PETITIONERS

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that one true and correct
copy of the Brief for the Minnesota Trucking Association,
as Amicus Curiae Supporting Petitioners was served on
the persons listed below on the 28th day of May, 2021, by
depositing them with the United States Post Office, with
First Class Postage prepaid.
Hon. William F. Highberger

SUPERIOR COURT OF LOS ANGELES COUNTY
312 North Spring Street, Department 10

Los Angeles, CA 90012

(213) 310-7010

Clerk of Court

CALIFORNIA COURT OF APPEAL,
SECOND DISTRICT, DIVISION 4
Ronald Reagan State Building

300 South Spring Street

2nd Floor, North Tower

Los Angeles, CA 90013

(213) 830-7000

re

Stephen M. West

Subscribed and sworn to before me this 28th day of
May, 2021.

Lhnvm Lrnt

Notary Public

  
 

Notary Public-Minnesota
‘My Commission Expires Jan 31, 2025

SHARIN L. STEWART
